<html>
<title> - THE CONFLICT IN LIBYA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                         THE CONFLICT IN LIBYA

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
       THE MIDDLE EAST, NORTH AFRICA, AND INTERNATIONAL TERRORISM

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2019

                               __________

                           Serial No. 116-38

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                       or http://www.govinfo.gov
                       
                       
                       
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 36-330PDF              WASHINGTON : 2019                      
 
 
 
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey              CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas

                
                                     

                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                                 ------                                

   Subcommittee on the Middle East, North Africa, and International 
                               Terrorism

                 THEODORE E. DEUTCH, Florida, Chairman

GERALD E. CONNOLLY, Virginia         JOE WILSON, South Carolina, 
DAVID CICILLINE, Rhode Island            Ranking Member
TED LIEU, California                  STEVE CHABOT, Ohio
COLIN ALLRED, Texas                   ADAM KINZINGER, Illinois
TOM MALINOWSKI, New Jersey            LEE ZELDIN, New York
DAVID TRONE, Maryland                 BRIAN MAST, Florida
BRAD SHERMAN, California              BRIAN FITZPATRICK, Pennsylvania
WILLIAM KEATING, Massachusetts        GUY RESCHENTHALER, Pennsylvania
JUAN VARGAS, California               STEVE WATKINS, Kansas

                                       

                     Casey Kustin,  Staff Director
                     
                     
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Wehrey, Dr. Frederic, Senior Fellow, Middle East Program, 
  Carnegie Endowment for International Peace.....................     8
Doherty, Ms. Megan, Senior Director for Policy and Advocacy, 
  Mercy Corps....................................................    19
Fishman, Mr. Benjamin, Senior Fellow, The Washington Institute 
  for Near East Policy...........................................    27
Hill, Mr. Thomas, Senior Program Officer, North Africa, United 
  States Institute of Peace......................................    34

                                APPENDIX

Hearing Notice...................................................    60
Hearing Minutes..................................................    61
Hearing Attendance...............................................    62


                         THE CONFLICT IN LIBYA

                        Wednesday, May 15, 2019

House of Representatives Subcommittee on the Middle East, North Africa, 
                      and International Terrorism

                      Committee on Foreign Affairs

                                     Washington, DC
    The committee met, pursuant to notice, at 2:11 p.m., in 
room 2167 Rayburn House Office Building, Hon. Theodore E. 
Deutch (chairman of the subcommittee) presiding.
    Mr. Deutch. This hearing will come to order.
    Welcome, everyone. The subcommittee is meeting today to 
hear testimony on the conflict in Libya.
    I thank our witnesses for appearing today. We are grateful 
for your participation in our hearing.
    I will recognize myself for the purpose of making an 
opening statement before turning it over to the ranking member 
for his opening statement.
    On April 4, Khalifa Haftar, the Commander of the Libyan 
National Army movement, launched a military offensive against 
Tripoli, the Libyan capital and home of the United Nations-
backed Government of National Accord. In response, pro-GNA 
forces joined several local militias to repel LNA incursions. 
Unfortunately, the LNA offensive occurred just before U.N.-
sponsored talks were scheduled to begin on April 14.
    This diplomatic track sought to reach consensus on new 
interim power-sharing and security arrangements and on a 
schedule for legislative and Presidential elections. The 
ongoing fighting has undermined a possible deal on these 
measures which would have improved governance and advanced 
stability in Libya.
    The current conflict is just the latest challenge to face 
the Libyan people since 2011 when they threw off the despotic 
rule of Muammar Gaddafi. It is the largest outbreak of violence 
in Libya since 2014, which occurred when Haftar tried to seize 
power and resulted in the de facto division of the country that 
persists until today.
    According to the United Nations, since April 4, more than 
450 people have been killed, over 2,150 wounded, and more than 
63,700 displaced in Libya. There are more than 665,000 migrants 
in Libya and approximately 3,100 are detained in Tripoli where 
they are at risk of starvation, human rights violations, or 
simply being caught in the crossfire between the LNA and GNA 
forces.
    Many of these migrants hail from countries other than 
Libya, and I would like to share two of their stories. Habben 
left Eritrea in 2015 to create a better life for his family. He 
was kidnapped in Sudan and sold to human traffickers who 
tortured him for a year to coerce money from his loved ones.
    After his family purchased his freedom, Habben was put on a 
boat intercepted by the Libyan Coast Guard in the 
Mediterranean. He is still in prison in Libya and fears his son 
will grow up fatherless.
    Yasser is a refugee from Darfur whose village was burned 
down by the Janjaweed militia. He escaped Darfur in 2016. His 
smugglers, however, refused to release him and brought Yasser 
to Sabratha in Western Libya where he was tortured until the 
militia holding him fell to GNA forces in October 2017. 
However, he was not allowed to leave Libya and remained 
imprisoned in appalling conditions.
    These are just two of hundreds of thousands of migrant 
stories, yet the Libyan conflict is not only humanitarian 
crisis, but it is one that directly threatens the United 
States' interest.
    Libya lies just south of Europe, only a few hundred miles 
across the Mediterranean from Italy and Greece. It is home to 
the ninth largest proven oil reserves in the world, and until 
the recent uptick in violence produced approximately 1.1 
million barrels of oil per day.
    Libya also contains an ISIS affiliate that engages in 
brutal violence and seeks to launch attacks throughout North 
Africa and into Europe. U.S. Special Operations forces recently 
withdrew from Libya because of the current offensive, reducing 
pressure on ISIS fighters in the country.
    Russia also provides Haftar with military assistance and 
likely hopes to gain access to territory that would allow it to 
cement its influence in North Africa and the Central 
Mediterranean and further its goal of fermenting chaos on 
Europe's southern border and in the Middle East broadly.
    Regional powers, the UAE, Egypt, Saudi Arabia, Qatar, and 
Turkey provide support to the warring parties which stokes 
their rivalry and heightens tension throughout the Middle East 
and North Africa. Therefore, the United States cannot afford to 
ignore the Libyan conflict. A well-defined, vigorous U.S. 
policy is necessary to prevent greater instability, stem the 
growing humanitarian crisis, and to facilitate political 
reconciliation in Libya.
    Unfortunately, recent U.S. policy has been confused, 
inconsistent, and counterproductive. Before the outbreak of 
fighting on April 4, the United States joined other members of 
the U.N. Security Council in supporting the U.N.-sponsored 
political process.
    On April 7, Secretary of State Pompeo stated U.S. 
opposition to the LNA offensive, publicly urged Haftar to halt 
his attack, and claimed his unilateral military campaign 
against Tripoli is endangering civilians and undermining 
prospects for a better future for all Libyans.
    However, only 8 days later, President Trump held a phone 
call with Haftar and praised Haftar's significant role in 
fighting terrorism and securing Libya's oil resources. 
President Trump reportedly failed to urge Haftar to agree to a 
cease-fire or to return to the political reconciliation 
process.
    Whether the President realized it or not, many of the 
ground in Libya and around the world perceived that phone call 
as tacit support for Haftar and the LNA movement. The call 
significantly undermined the United Nations and the GNA and 
hindered attempts to broker a political solution to the 
conflict.
    Moving forward, it is imperative that the administration 
articulate a clear U.S. policy in Libya. The United States must 
convince outside powers to end their military support to the 
warring parties.
    With the exception of Russia, the United States maintains 
strong relationships with all of the States intervening in 
Libya. The assistance these States provide to their Libyan 
patrons perpetuates the conflict, fosters greater instability, 
and must cease.
    The United States should also support an immediate cease-
fire, reiterate its commitment to political reconciliation, and 
unequivocally reject any military solution to the Libyan 
conflict. Only a political process can secure U.S. interests, 
stabilize Libya, reduce the threat of terrorism, and most 
importantly, provide peace and opportunity to the Libyan 
people.
    With that, I will now to Ranking Member Wilson for his 
opening statement.
    Mr. Wilson. Thank you, Chairman Deutch, for calling this 
timely hearing. We are all concerned about the recent 
resumption of sustained violence in Libya and its eastern 
portions, led by General Khalifa Haftar, clashed with forces 
loyal to the internationally recognized Libyan Government of 
National Accord, or GNA, near Tripoli.
    Nearly 8 years after Gaddafi's removal, the situation in 
Libya appears worse than ever. Despite backing by the United 
Nations, the Western-based GNA has not been able to consolidate 
control of the country and provide a real measure of security. 
The political and military divisions have plagued Libya ever 
since the 2011 intervention in the country has now erupted into 
the worst bout of violence since 2014.
    Four-hundred forty-three people have already been killed 
over 2,000 wounded, and over 60,000 civilians displaced. Armed 
militias, some with ties to GNA, others linked to General 
Haftar's Libyan National Army, have all profited from the chaos 
in the country by smuggling drugs, weapons, and people
    The recent clashes between the GNA and LNA-aligned forces 
can also breathe new life into terrorist groups like al-Qaeda's 
local affiliate, Ansar al-Sharia, which has already vowed to 
fight Haftar's forces in Tripoli.
    ISIS in Libya has also exploited their security vacuum in 
the country, steadily increasing its activity throughout 2018 
and launching an attack in Central Libya in April, and an 
attack on Haftar's forces in the south earlier this month.
    And as we have seen in other conflict zones, the renewed 
clashes between the GNA and LNA-aligned forces will only 
reenegerize elicit elements in the country, both criminal 
networks and terrorist groups that will be the main 
beneficiaries.
    Compounding Libya's many problems are the host of 
international actors backing different sides in the conflict. 
Despite the international community's endorsement of the GNA, 
Saudi Arabia, the United Arab Emirates, Egypt, and Russia have 
sided with Haftar's forces. Russia has actually been supplying 
the LNA with parallel Libyan currency to keep it afloat.
    Meanwhile, Qatar and Turkey have provided support to 
Islamist militias fighting the LNA, fostering a dangerous 
network of armed militias across the country. While some were 
hopeful that Libya was headed toward reconciliation, after the 
meeting between Haftar and GNA Prime Minister Designate Sarraj 
in Abu Dhabi in February, the renewed clashes have been the 
eventuality evermore--make that evermore remote.
    Meanwhile, Haftar's forces have made significant advances 
in over the past year and a half, seizing the country's major 
oil infrastructure in the center and southwest. The truth is 
that everyone's Libya policy is failing. The United States-
backed government in Tripoli has simply not been able to 
stabilize the country. The new, reinvigorated military 
challenge by the LNA is further proof of that.
    What is more, our counterterrorism policy in the country is 
faltering. Instead of terrorist groups weakening, ISIS and al-
Qaeda appear to be strengthened. Libya's instability is a major 
challenge to U.S. interests, and we need a concerted effort 
from this administration to make it a priority.
    I am grateful that the President has nominated Richard 
Norland to be the next Ambassador to Libya last month. Mr. 
Norland is a career diplomat who previously served as 
Ambassador to Uzbekistan and Ukraine. I urge the Senate to 
confirm this much-needed appointee.
    I also urge the administration to fill the Special Envoy 
slot to bolster our Libya policy. Defeating ISIS and al-Qaeda 
in Libya will require an end to hostilities in Libya, so that 
the terrorists can no longer exploit both the security vacuum 
and the grievances of local populations. We will not drone one 
way out of this mess.
    The Libya threat poses--necessitates bold U.S. leadership 
and real political commitment to reach a comprehensive 
political solution that will ultimately stabilize the country.
    Fortunately, we are joined today by a panel of Libya 
experts who will begin to address these issues. I look forward 
to hearing their thoughts on the role Congress can play in 
shaping U.S. policy regarding Libya, as well as what the United 
States can do to facilitate real political stabilization in the 
country.
    Thank you again, Chairman Deutch, and thank you for the 
witnesses being here today. I yield back the balance of my 
time.
    Mr. Deutch. Thank you, Mr. Wilson.
    In the interest of time, as we are expecting another vote 
series, we will move directly to witness testimony. Without 
objection, all members may have 5 days to submit statements, 
questions, and extraneous materials for the record, subject to 
the length limitation in the rules.
    I will now introduce our witnesses. Dr. Frederic Wehrey is 
a senior fellow in the Middle East Program at the Carnegie 
Endowment for International Peace, focused on North Africa and 
the Gulf. He has been traveling regularly to Libya since 2009 
and is the author of a recently published book on the country's 
struggle after its 2011 revolution.
    Dr. Wehrey is also a 21-year veteran of the active and 
reserve components of the U.S. Air Force, with tours across the 
Middle East and North Africa. Thank you, Dr. Wehrey, for being 
here. Thank you for your service.
    Ms. Doherty is next. Megan Doherty is the senior director 
for policy and advocacy at Mercy Corps. She previously served 
in the U.S. Department of State as a senior advisor in the Near 
Eastern Affairs Bureau and a senior coordinator for U.S. 
assistance to Libya.
    She also served as the White House National Security 
Council director for North Africa. Ms. Doherty has conducted 
extensive research and worked on multiple civil society and 
governance programs in Libya. We welcome Ms. Doherty.
    Mr. Benjamin Fishman is a senior fellow at The Washington 
Institute for Near East Policy and an adjunct assistant 
professor of security studies at Georgetown University. He 
previously served on the National Security Council where he 
held several posts, including executive assistant to Ambassador 
Dennis Ross, director for Libya, and director for North Africa 
and Jordan.
    Since leaving government, he was a consulting senior fellow 
at the International Institute for Strategic Studies and an 
adjunct defense policy analyst at the RAND Corporation.
    And, finally, Mr. Thomas Hill is the senior program officer 
for North Africa at the United States Institute of Peace, 
focusing on Tunisia, Libya, and Algeria. Before joining USIP, 
he was a visiting fellow at The Brookings Institution where he 
focused on reforming civilian U.S. foreign policy agencies.
    Most importantly, Mr. Hill previously served as senior 
professional staff member on the House Committee on Foreign 
Affairs majority staff covering North Africa, and as a foreign 
affairs officer in the Bureau of Near Eastern Affairs at the 
United States Department of State.
    Thanks, all of you, for being here today. Let me remind the 
witnesses to please limit your testimony to 5 minutes. Without 
objection, your prepared written statements will be made part 
of the record. We are so grateful that all of you are here 
today.
    And, Dr. Wehrey, will start with you, please.

STATEMENT OF FREDERIC WEHREY, PH.D., SENIOR FELLOW, MIDDLE EAST 
      PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Dr. Wehrey. Chairman Deutch, Ranking Member Wilson, members 
of the subcommittee, thank you for the opportunity to speak 
with you here today on Libya's conflict. I join you as someone 
who has been visiting the country for nearly a decade and 
interviewed most of the key players, including the man at the 
center of the conflict, Khalifa Haftar.
    During repeated trips to Tripoli, I have also felt Libyans' 
frustrations at the Government of National Accord, or GNA, and 
I have seen the misery inflicted by the militias that are 
nominally aligned to that government. What these trips 
underscored is that there is no black and white in Libya, no 
easy fixes, and attempts to pick a savior or a winner have 
always backfired.
    Mr. Chairman, the current fighting is partly the outcome of 
exclusionary politics, economic corruption, and unresolved 
fractures going back to the 2011 revolution. On top of this, 
meddling by regional States and international missteps, 
including by the United States and the United Nations, have 
brought Libya to this point.
    But the ultimate blame for this war rests on the shoulders 
of General Khalifa Haftar and his April 4 assault on the 
capital. The attack follows a long pattern by Haftar of 
threatening democratic institutions and undermining political 
dialog with military force in favor of military rule.
    None of the arguments for his offensive hold up to much 
scrutiny. There is no question that the decrepit Government of 
National Accord in Tripoli needs to be replaced, but that is 
precisely what the United Nations process was supposed to do 
through a national conference and elections.
    Haftar had even been offered a prominent position in a 
governing arrangement, but he rejected that in favor of the 
attack, which occurred just 10 days before the national 
conference.
    There is also no question that Tripoli's Mafia-like 
militias need to be dismantled, but here again, modest but 
steady progress was being made to curtail their power just 
before Haftar's attack under the leadership of a pragmatic 
Minister of Interior in Tripoli with international help.
    And at any rate, the way to deal with entrenched militias 
is through political and economic tools, not a military assault 
with heavy weapons or in civilian areas. Tragically, this war 
has given the militias, including a range of undesirable 
sanctioned individuals, a new opening that will be difficult to 
reverse.
    Haftar's counterterrorism rationale is flawed as well. The 
security vacuum created by this offensive has been a boon to 
the Islamic State, which has already increased its attacks 
since the war started. But perhaps the biggest fallacy concerns 
the notion of Haftar's decisiveness.
    The idea that he could quickly take Tripoli and unify the 
country, that has not happened and it will not happen anytime 
soon. Instead, his attack has produced a widening civil war 
that threatens Libya's geographic coherence and is unraveling 
its social fabric.
    As the fighting drags on, oil production will come under 
risk. And as Haftar demonstrates his staying power outside of 
Tripoli, his regional backers will be tempted to increase their 
military assistance. We are already seeing that. In turn, the 
GNA-aligned forces are seeking external military help of their 
own.
    In the midst of all of this, the international response has 
been marked by ambivalence, divisions, and increasing support 
to Haftar. To move past the impasse, a robust and even-handed 
American response is needed. A more resolute U.S. policy in 
this crisis does not mean owning the Libya problem.
    Even modest U.S. diplomacy could prevent the country from 
spiraling into greater conflict. In particular, the U.S. should 
focus on three core areas.
    First, the United States should exert diplomatic leverage 
to dissuade regional meddlers from sending arms and materiel to 
both sides. And such pressure should also include greater 
congressional scrutiny of violations of the U.N. arms embargo 
and sanctions on logistical companies that facilitate those 
violations.
    Second, American diplomacy should safeguard Libya's vital 
oil infrastructure and prevent it from being militarized, 
especially by Haftar's side. In the past, in 2018, American 
diplomats played a very effective role in doing just that.
    Finally, the U.S. should use the threat of sanctions and 
war crimes prosecution against all sides to deter attacks on 
civilians, medical workers, and critical infrastructure, and to 
marginalize spoilers. Congress should play an important role--
oversight role in the implementation of these measures.
    Mr. Chairman, members of the committee, in closing, I 
cannot stress enough the rapidly shutting window for action. 
Libya stands on the brink of a dissolution that threatens 
American interests and the interests of our allies. The 
solution here is not to pick one side in this complex, 
multifaceted conflict, especially the side that offers the 
false promise of an authoritarian military-led stability. 
Rather, it lies in supporting a return to dialog and a more 
inclusive path.
    Thank you for the opportunity to speak with you here today. 
I look forward to your questions.
    [The prepared statement of Dr. Wehrey follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Deutch. Thank you, Dr. Wehrey.
    Ms. Doherty, you are recognized.

  STATEMENT OF MEGAN DOHERTY, SENIOR DIRECTOR FOR POLICY AND 
                     ADVOCACY, MERCY CORPS

    Ms. Doherty. Chairman Deutch, Ranking Member Wilson, and 
members of the subcommittee, thank you for the opportunity to 
testify on the humanitarian dimensions of the conflict in 
Libya. I will briefly summarize the situation on the ground and 
make recommendations for moving forward.
    But I will first note that the deepening humanitarian 
crisis in Libya is entirely manmade. The civilian casualities 
and the violations of international humanitarian law are 
eminently avoidable and require a political solution. But 
despite the situation on the ground, there is an opportunity 
for the United States, and the U.S. Congress specifically, to 
prevent further deterioration.
    The Libyan people have now endured a near decade of 
insecurity, economic dysfunction, and political instability. 
But before the recent outbreak of violence, Libya had made some 
important gains, including restarting oil production and 
partnering with the U.S. to prevent ISIS from establishing a 
new caliphate in 2016.
    The escalating violence taking place now threatens to 
unravel these gains and destabilize Libya, and we have seen 
before that chaos in Libya does not stay within its borders. So 
the choices that we make in this crisis now will reverberate in 
the region.
    Since Khalifa Haftar launched his attack on April 4, 
fighting has killed more than 450, injured more than 2,000, and 
displaced, as of this morning, 66,000 people.
    Here are the key consequences that we are seeing on the 
ground. There are more than 1 million people in urban Tripoli 
watching the front lines inch closer. The conflict, including 
air strikes in civilian neighborhoods, has already killed 23 
and wounded 100 civilians. Sixty-six thousand people have fled 
their homes. They are mostly sheltering with relatives, in 
schools that have been closed and in overcrowded apartments.
    Rent has tripled. Food prices have increased significantly. 
Hospitals and homes are losing access to power and clean water. 
People are coping as best they can, but this is not 
sustainable.
    Tripoli's already fragile hospitals are overwhelmed. In 
just 3 weeks, the World Health Organization's emergency medical 
teams performed almost 250 surgeries. Hospitals and health 
workers are also being attacked in clear violation of 
international humanitarian law.
    There are more than 3,000 refugees and migrants trapped in 
detention centers in Tripoli. We have already seen terrible 
reports of militias firing on and wounding detained people in 
Qasr bin Ghashir. We are now seeing more people trying to flee 
to Europe by sea. Those who are intercepted by the Libyan Coast 
Guard are returned to detention centers that are increasingly 
unsafe and running out of food.
    Those who are not intercepted face other risks. Just last 
week, 70 people drowned trying to cross the Mediterranean.
    Humanitarian responders are trying to reach people in need. 
They are braving ongoing shelling, checkpoints, and explosive 
devices that are being planted on key roads. But as the 
conflict continues, both sides have the ability to cutoff 
supply lines for food, fuel, medicine, and water, not just to 
Tripoli but to the rest of the country as well.
    Further conflict in Libya will cost more lives, damage 
infrastructure, and create openings for terrorist threats. And 
we know from experience that instability in Libya does not stay 
in its borders.
    Absent unambiguous, high-level U.S. pressure for a 
political process, warring parties on both sides will continue 
to fight, confident that they can do so with impunity. The 
United States does have unique leverage in Libya, and right now 
has the capacity to engage in small, low-risk ways, to help 
reduce violence, ensure that humanitarian aid is reaching 
people in need, and to convince the warring parties and their 
foreign backers to commit to a civilian-led transition process.
    The U.S. should immediately call for a cease-fire, 
including through a U.N. Security Council resolution, publicly 
and privately reaffirm support for the U.N.-led political 
process, including through bipartisan statements from Congress, 
and pressure all parties to respect human rights, international 
humanitarian law, and to ensure safe, continued humanitarian 
access, including to refugees and migrants who remain the most 
vulnerable in this conflict.
    A return to a political process is vital, but more work 
will surely need to be done to address Libya's longer term 
stability challenges. It is, however, a necessary first step to 
save lives and move from this conflict toward a more inclusive, 
Libyan-led peace process, and to longer term recovery.
    Thank you for the opportunity to testify today. I look 
forward to your questions.
    [The prepared statement of Ms. Doherty follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Deutch. Thank you, Ms. Doherty.
    Mr. Fishman, you are recognized.

 STATEMENT OF BENJAMIN FISHMAN, SENIOR FELLOW, THE WASHINGTON 
                 INSTITUTE FOR NEAR EAST POLICY

    Mr. Fishman. Chairman Deutch, Ranking Member Wilson, 
members of the committee, Libya's future as a peaceful, 
prosperous, and free country has never been more under threat 
since 2011. At the same time, the United States lacks a clear 
policy and strategy toward Libya, which makes this hearing 
especially timely.
    From the onset of Libya's transition, U.S. policy toward 
Libya has actually been relatively consistent. The U.S. has 
always supported the United Nations Support Mission in Libya, 
UNSMIL, in its efforts to help guide the Libyans through ups 
and downs, three elections, several transitional governments, 
and multiple peace initiatives. This was the policy of the 
Obama Administration, and until recently the Trump 
administration.
    Even the Trump administration, which I have consistently 
urged to pay more attention to Libya, helped support Ghassan 
Salame, the head of UNSMIL, initiate his 2017 action plan to 
reinvigorate Libya's stalled transition.
    The administration seemed on track to maintain this policy 
after General Haftar launched his brazen offensive against 
Tripoli on April 4. As the chairman mentioned, on April 7, 
Secretary of State Pompeo said the U.S. opposed Haftar's 
offensive and emphasized ``there is no military solution to the 
Libya conflict.'' But several days later, President Trump 
called General Haftar and acknowledged Haftar's role in 
securing Libya's oil and fighting terrorism, Haftar's professed 
reason for attacking Tripoli.
    There was apparently no mention of a halt in fighting or 
returning to negotiations. Following the phone call, the U.S. 
refused to support a U.N. Security Council resolution calling 
for a cease-fire, ironically joining Russia in their existing 
support for Haftar.
    The effect of the Trump call signaled American ambivalence 
at best toward the latest fighting in Libya. Moreover, 
President Trump elevated Haftar to a head of State level, 
playing to his ego with a likely impact of spurring on his 
offensive. The fight for Tripoli is now in its 41st day. The 
longer the conflict persists, the harder it will be to recreate 
an environment where negotiations and a political solution will 
be acceptable to either side.
    So what to do? First and foremost, the White House needs to 
establish a clear policy toward Libya. Is it in favor of 
Haftar, or does it support an immediate cease-fire and a return 
to U.N.-led negotiations? Either way, it must express a clear 
set of preferences.
    A good beginning would be to echo Senator Lindsey Graham 
when he appealed to the administration to ``reaffirm past 
statements rejecting a military solution in Libya and pushing 
for political reconciliation.''
    The first priority should be halting the violence. The U.S. 
should lead an effort to impose an unconditional cease-fire at 
the U.N. Security Council.
    Second, the U.S. needs to conduct a serious effort to end 
outside support to Libya's warring factions, the introduction 
of new weapons and technologies, such as strike-capable 
Chinese-made drones on Haftar's side, not only threatens 
continued escalation and civilian casualties but clearly 
violates the U.N. arms embargo.
    Finally, the U.S. has to be at the table represented by 
senior officials when the negotiating process resumes. A more 
intense level of U.S. engagement on Libya is necessary if the 
U.N. will be able to reconstitute its peace and unity efforts.
    Congress can also play an important role. Last September, 
Congressman Lieu sent a bipartisan letter to then-Ambassador 
Nikki Haley, co-signed by Chairman Deutch and three additional 
members of this committee. It urged the U.S. to invigorate 
support for Salame's action plan and to discourage our partners 
``support of proxy forces inside Libya and violations of the 
arms embargo.''
    I humbly suggest this committee send a similar bipartisan 
letter to the White House asking for an immediate clarification 
of U.S. policy on Libya and encouraging the steps outlined 
above.
    Thank you for this opportunity, and I look forward to your 
questions.
    [The prepared statement of Mr. Fishman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Mr. Deutch. Thank you very much, Mr. Fishman.
    Mr. Hill, you are recognized.

STATEMENT OF THOMAS HILL, SENIOR PROGRAM OFFICER, NORTH AFRICA, 
                UNITED STATES INSTITUTE OF PEACE

    Mr. Hill. Chairman Deutch, Ranking Member Wilson, members 
of the subcommittee, thank you very much for the opportunity to 
testify on the conflict in Libya today. I will be summarizing 
my written testimony in the interest of time.
    I am currently the senior program officer for North Africa 
at the U.S. Institute of Peace, although it was not so long ago 
that I was staffing some of you on North Africa issues as the 
senior professional staff member on this committee for Chairman 
Ed Royce. It is a pleasure to be back among so many friends and 
former colleagues.
    I would like to note that the views I express today are my 
own and not necessarily those of the U.S. Institute of Peace, 
which does not take policy positions.
    Today's hearing is important because the conflict in Libya 
represents a direct threat to U.S. national security interests. 
The collapse of State institutions in Libya has created a 
conduit for irregular migration into Europe, producing 
instability and increasing the threat of violence and 
terrorism. Unable to police its own territory, Libya is now a 
staging ground for terrorist attacks in neighboring Egypt and 
Tunisia, two critical allies of the United States. And these 
terrorists are funding their operations in part through the 
smuggling of weapons, goods, and people. The reports of modern 
day slavery are horrific.
    In testimony before the Senate Armed Services Committee, in 
March 2017, General Tommy Waldhauser, the commander for U.S. 
AFRICOM forces, testified that ``The instability in Libya and 
North Africa may be the most significant near-term threat to 
U.S. and allied interests on the continent.''
    The strategy of allowing the United Nations to lead the 
international mediation effort has failed. It has failed 
because the U.N. never had the coercive ability to marginalize 
or control potential spoilers. It repeatedly made political 
miscalculations that undermined its own credibility with the 
Libyan people and because States that publicly pledged to 
support the United Nations routinely took actions to the 
contrary.
    Field Marshal Haftar's assault on Tripoli in April began 10 
days before the U.N. much-anticipated national conference. Many 
Libyans had already been openly critical of the U.N.'s ability 
to end the post-Gaddafi transition after 8 years, but the 
timing of Haftar's assault during the visit of the U.N. 
Secretary General and Special Representative Ghassan Salame 
epitomizes the U.N.'s weakness.
    Today, many Libyans no longer believe the U.N. can deliver 
peace to Libya. Peace in Libya depends in large part on the 
actions of external governments. Since 2011, external 
governments have sought to advance narrow self-interests at the 
expense of the Libyan people. The UAE, Egypt, Saudi Arabia, and 
France repeatedly endorsed U.N. Security Council resolutions 
which recognized the GNA as ``the sole legitimate government of 
Libya,'' with Prime Minister Fayez al-Sarraj as the leader of 
the Presidential Council, yet each of these countries routinely 
took steps to undermine both the GNA and the U.N. while 
advancing their own interests through proxies.
    To be sure, Libyans do bear some responsibility for the 
current situation. Unfortunately, many leaders have chosen to 
enrich themselves and put personal interests above those of 
national unity. The 2018 National Defense Strategy outlines how 
U.S. interests in Africa will be advanced ``by, with, and 
through partnerships with regional allies and States.''
    One of AFRICOM's four principal lines of effort is Libya. 
It is time for the United States to start using its leverage 
with these allies to implement the national defense strategy, 
pressuring UAE, France, Qatar, Saudi Arabia, Egypt, and Italy 
to play a productive role in ending Libya's conflict.
    Since 2012, the U.S. has been largely disengaged from 
Libya, but it is because of this engagement that many Libyans 
now see the U.S. as a potential honest broker capable of 
organizing the international community around a peaceful 
solution in Libya and marginalizing potential spoilers, many of 
whom are U.S. allies.
    As a U.S. Government organization distinct from the 
executive branch, the U.S. Institute of Peace is uniquely well-
suited to play a role here. USIP's work is seen by Libyans as 
an example of the U.S. Government's commitment to peace, and 
USIP is one of the few organizations with a strong presence in 
southern Libya.
    Our work in Sabha and the Fezzan province broadly, 
facilitating community-based dialogs, allows us to engage 
directly with some of Libya's historically most marginalized 
communities. These Libyans are tired of the post-Gaddafi 
transition period and yearn for a reconciliation process that 
can allow the country to heal.
    Given the failures of the U.N.-led process, it would be 
naive to hope that Ghassan Salame and his team can now mediate 
an end to the Libyan conflict. Many of the external actors that 
publicly supported the U.N. in the past have now explicitly or 
implicitly endorsed Haftar's military assault, helping to make 
the GNA and Sarraj effectively irrelevant.
    Some have welcomed Haftar's military campaign and perceive 
him as a bulwark against Islamic extremism and terrorist 
organizations. This is a gross misreading of the man and those 
within his LNA forces. As we have seen from the LNA's campaign 
in southern Libya, the LNA is capable of horrific human rights 
abuses. If Haftar is encouraged to continue his campaign, we 
should expect to see more bloodshed, a new humanitarian crisis, 
and new opportunities for ISIS to emerge.
    Haftar has already shown his disdain for the concept of 
Libyan democracy. If allowed to take Libya through force, his 
dictatorship will not bring the stability he has promised. The 
United States should explore all diplomatic options for using 
its considerable leverage to facilitate a peaceful solution to 
the Libyan conflict.
    Again, thank you for the opportunity to testify here today. 
I am happy to take your questions.
    [The prepared statement of Mr. Hill follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Deutch. Thank you, Mr. Hill.
    We are expecting votes to be called relatively soon. We 
will turn to questions now. I will go to the ranking member 
first, and we will try to get in as many as we can. If members 
would like to not use the full 5 minutes, that might allow for 
more of us to get questions in. But, Mr. Wilson, you are 
recognized.
    Mr. Wilson. Mr. Chairman, thank you very much. And in line 
with the time constraints, first of all, I want to thank each 
of the witnesses. You were very thoughtful in your suggestions 
on how to address the utter instability in Libya.
    Beginning with Mr. Hill, and proceeding with each of you, 
ISIS has staged a string of attacks in Libya in recent weeks. 
Can you describe the terrorist attacks' current operational 
capabilities in Libya? To what extent has ISIS benefited from 
the renewed fighting?
    Mr. Hill. Thank you very much, Ranking Member Wilson. It is 
very clear that ISIS and other terrorist groups thrive on 
instability and the chaos that has ensued. To their specific 
capabilities at any given time, I am not best qualified to 
answer that.
    But it is very clear that they are opportunistic, and that 
as government institutions are uncapable or unwilling to 
perform the public safety mission, ISIS and others will exploit 
that. And as we have seen in the past, they are brutal in their 
terrorist assaults.
    So it is clear that any continuation of this violence only 
assists ISIS and its cohort.
    Mr. Wilson. Thank you.
    Mr. Fishman.
    Mr. Fishman. I agree. And Fred can talk more 
authoritatively on this than anyone. But Haftar's position as a 
counterterrorism specialist is, frankly, misguided. The actual 
people who cooperated with the U.S. Government and AFRICOM in 
2016 where a 6-month operation took place to rid Sirte of ISIS 
were largely a group from Misrata. Those are the people that 
Haftar is now fighting, and those are the people that are on 
the defensive now that President Trump has called Haftar, and 
we do not know where U.S. policy stands on that.
    Mr. Wilson. Thank you.
    Ms. Doherty.
    Ms. Doherty. I strongly echo the points made by my 
colleagues. I was serving in the White House during the Sirte 
campaign, and we did partner with the GNA-aligned Misrata 
militias, who are currently under attack by Haftar's forces.
    And I will just underscore that it is clear that ISIS is 
taking advantage. We have seen I think three attacks in the 
last 3 weeks, and truly the only way to address this 
instability that they will continue to exploit is through a 
negotiated political process.
    Mr. Wilson. Thank you.
    And, finally, Dr. Wehrey.
    Dr. Wehrey. I just echo what was said. ISIS is definitely 
on the rebound. Last year alone, they conducted about 25 
attacks, including against key installations or institutions in 
Tripoli, the National Oil Corporation. They are confined to the 
desert. They have got urban cells in Tripoli.
    But, again, just to underscore, Haftar's attack has really 
opened up this political vacuum. He is attacking the Misratan 
militias that, as we have heard, attack the Islamic State. In 
Sirte, I was embedded with those militias in 2016 during the 
battle. I saw the sacrifices they made. They received American 
counterterrorism support.
    What is happening now is because of this civil war, the 
militias on both sides are more focused on fighting each other 
than containing the Islamic State. And so it is a gift for the 
Islamic State, and we are seeing an uptick in attacks, and that 
is going to continue, unfortunately.
    Mr. Wilson. And I yield back.
    Mr. Deutch. Thank you, Mr. Wilson.
    Mr. Connolly, I saw you standing up. You are recognized.
    Mr. Connolly. Thank you, Mr. Chairman, and welcome to our 
panel.
    In the interest of time, I just want to ask one basic 
question, and I will start with you, Dr. Wehrey. On April 7, 
the Secretary of State, the highest diplomat in the U.S. 
Government, stated unequivocally that we oppose the military 
offense by Khalifa Haftar's forces and urge the immediate halt 
of these military operations against the Libyan capital.
    But 8 days later, the White House announced that the 
President of the United States spoke to Haftar and recognized 
Field Marshal Haftar's significant role in fighting terrorism 
and securing Libya's oil resources. After that, 4 days later, 
the Acting Secretary of Defense, Patrick Shanahan, emphasized 
where we need Field Marshal Haftar's support is in building 
democratic stability there in the region.
    What in the world would account for such an enormous pivot 
in U.S. policy with respect to Haftar in the space of 8 days?
    Dr. Wehrey. What I can say is probably speculation, but 
what I will offer is an analysis of its effect on the battle. I 
think it neutralized diplomatic efforts that were underway to 
effect the withdrawal of Haftar's forces, to effect a cease-
fire. It had a real sort of, I mean, shocking effect. Various 
interlocutors in the region are not, you know, taking U.S. 
diplomacy. You know, they are confused by it now.
    Again, I think it is a huge boon to the States that are 
fueling this conflict, the Arab States. So it is a gift to 
Haftar. As we have heard, it is a reversal of U.S. policy. You 
have got an internationally recognized government in Tripoli 
that, for all of its flaws--and I have seen those flaws--you 
know, the policy in the U.S. was to support that government. 
Suddenly, we are reversing it. It is a huge policy confusion.
    And so what I would urge is, you know, the U.S. needs to 
come out with a clear statement on a cease-fire, you know, 
walking that back so we can get down to a return to the 
political process.
    Mr. Connolly. And just real quickly, Mr. Hill, if I 
understood your testimony, if we are backing Haftar, or even 
halfway encouraging him, we are backing the wrong guy from what 
you said. You know, people misunderstand who he is.
    Mr. Hill. Haftar is a destructive force inside Libya. It is 
clear that he has personal ambitions that trump those of the 
country in general. I think his decision to walk away or indeed 
take actions to undermine the U.N.'s national conference, which 
was slated to be middle of April, and then he assaulted 10 days 
in advance, I think that demonstrated his disdain for the 
United Nations and the political process in general.
    I do not know that there is a political solution that he 
would accept, other than complete domination, and it raises 
questions about his ability to be a productive force going 
forward.
    Mr. Connolly. No good can be served if we have this kind of 
vacillation, profound vacillation, at the highest levels of the 
U.S. Government.
    Thank you very much. I yield back.
    Mr. Deutch. All right. Thank you, Mr. Connolly.
    Mr. Watkins is recognized.
    Mr. Watkins. Thank you, Mr. Chairman.
    Which foreign or international actors would be the best to 
lead a peace process? And the other part, because I want to be 
brief, what actors inside Libya should the U.S. interact with? 
And what is the nature of that interaction?
    Dr. Wehrey. I will start with the Libyans. I mean, Libya, 
it is a country with a relatively small population of 6 
million. And there is a lot of what I would call the sort of 
silent majority. We are not hearing their voices. They do not 
support the sort of militia mafia. They are not supporting a 
new dictatorship.
    We have been, I mean, engaged in serious outreach to them 
for a number of years--civil society, tribal leaders. There are 
many Libyans that I met in Benghazi that supported Haftar out 
of desperation, right, because he promised a return to order. 
But they are very uneasy and especially now, quite frankly, 
disgusted with how this conflict has evolved and his own 
personal ambitions.
    So the field is I think really ripe for American 
engagement. I think, as we have heard, Libyans have been ill-
served by their political class. Many of these elites are just 
out for, you know, sort of a scramble for the economic spoils. 
But there is a base that we can engage with, and we have been.
    As far as international States, I mean, the big problem in 
this is there has been these European rivalries. The French and 
the Italians have been pursuing different agendas. The British 
have been tied up with Brexit. I think the Germans have been 
taking a very forceful and moral stand on this.
    But as we have heard, I think the United States has a 
unique role as a relatively neutral broker. In my conversations 
with multiple Libyans, we are still seen as relatively neutral, 
and we need to capitalize on that now in this current crisis.
    Ms. Doherty. I will just add on the U.N. process, or, 
rather, on the peace process that the U.N. is still, in my 
opinion, the best avenue toward a negotiated political 
settlement that will deliver true progress for the Libyan 
people.
    We have seen previously harmful effects by European 
capitals having sort of elite-led negotiations that have been 
largely divorced from the realities on the ground, and that the 
U.N.-led process, with strong U.S. leadership, is the right way 
forward.
    And I will caution we should not be looking toward a binary 
solution of a Haftar-Sarraj sitdown. Really, what we need to be 
doing is working with the U.N. to bring in the municipalities, 
the tribal power brokers, and the Libyans that Fred is talking 
about, these vibrant civil society activists and marginalized 
voices.
    Mr. Fishman. And to add to that, that is why the timing of 
this offensive was so egregious, because Haftar basically 
preempted this U.N.-been organized dialog. There is no question 
that the U.N. efforts have been stymied repeatedly over the 
years. The structure of compromise has been ugly, but the U.N. 
needs to be the center of gravity of negotiations, despite what 
my colleague, Mr. Hill, said.
    The U.S. is the best position to reinforce the U.N.'s 
ability to get the parties to the table, including to reject or 
to send a strong signal that other regional actors and spoilers 
need to step away from interfering in Libya's transition.
    Mr. Hill. I think we would all agree that the U.S. has a 
unique role to play, and has the ability, the leverage, to 
bring many of the players who are currently playing an 
unhelpful role around the table to try to talk through some of 
this. But, ultimately, this has to be a Libyan-led process.
    This does not get resolved unless Libyans themselves are 
able to find a path toward reconciliation. So while the U.S. or 
U.N.--we can debate about which one should start the 
conversation and start to try to remove some of these external 
actors that have been so unhelpful--at the end of the day, this 
has to be a Libyan-led process.
    Mr. Watkins. Thank you. I yield the balance of my time.
    Mr. Deutch. Thank you, Mr. Watkins.
    Mr. Allred, you are recognized.
    Mr. Allred. Thank you, Mr. Chairman, and thank you to our 
panel. I think you have brought up some very good points in 
your written testimoneys and here today, and I think this is a 
very important topic.
    I want to begin with why the U.S.'s leadership is so 
critical here. You all touched on it briefly in the last 
question. With the Europeans having their own disagreements 
here, with our own regional allies putting their hands into the 
pot, with Russia also having some equities here, why is the 
U.S.'s leadership role so critical in Libya?
    And, Dr. Wehrey, if you could begin.
    Dr. Wehrey. Well, again, I think it does stem from the 
Libyans' memory of our support to the NATO intervention. And, 
again, we are seen as sort of above these sort of petty 
squabbles that define other powers. And I think we have shown 
our ability in the past with some very forceful diplomacy to 
safeguard Libya's national institutions, especially on the oil.
    And in the summer of 2018, American diplomats were crucial 
in basically persuading General Haftar to return oil 
installations that he had seized to the rightful control of the 
National Oil Corporation. We played a huge role in reforming 
the central bank. We supported counterterrorism efforts.
    So, again, we are not seen as backing narrow agendas. Of 
course, our interests lie in counterterrorism. But I think, 
again, the perception in Libya is that we can be--we can act as 
this very important broker.
    Mr. Allred. Thank you.
    Ms. Doherty.
    Ms. Doherty. Thank you. So I lived in Libya right after the 
revolution. In 2011 and 2012, I was in Benghazi and Tripoli, 
and then later in Tripoli in 2013 and 2014. And in those early 
days in Benghazi, I saw the gratitude that the Libyan people 
felt toward the United States, and the fact that 700,000 people 
in Benghazi were sheltering and thinking that they were going 
to be brutally massacred by a dictator and that the United 
States stood up. And that legacy looms large in how they 
perceive the United States today.
    Because we do not have the colonial legacy, because we do 
not have the geographic proximity, we are still seen as a 
neutral and a trusted and an important actor. In fact, the 
Libyans that I still talk to today, many of whom are in Tripoli 
and quite scared about what is happening right now, are asking 
for the U.S. to reassert itself diplomatically and play a 
leadership role.
    Mr. Allred. Mr. Fishman.
    Mr. Fishman. So there is a difference between U.S. 
engagement and leadership and U.S. taking ownership over the 
issue. President Trump sent a really significant signal in 
April 2017 when he said publicly, with the then Italian Prime 
Minister, ``We have no role in Libya, except for 
counterterrorism.''
    That enabled the bureaucracy to continue helping Libya on 
the important technical issues that Fred mentioned. But on a 
political level, it really signaled to the rest of the world 
that the executive branch really does not care. That was also 
reflected in the fact that there have been three leader--
Presidential-level summits--two in France, one in Italy. The 
representative from the United States, was a mid-level State 
Department official, not head of State, not even secretary of 
State. That sends a signal of lack of interest.
    I think the consensus of this group is if that leadership 
was elevated, we would see far less interference by 
unproductive actors on the outside and maybe some progress on 
the U.N. effort.
    Mr. Allred. Mr. Hill, briefly, if you could.
    Mr. Hill. Thank you. There is no other country that has 
significant relationships with all of these countries in such a 
way that pressure could be brought to bear to potentially 
change--produce behavior modification. Other States may try, 
but the U.S. is uniquely qualified to do it.
    Mr. Allred. Well, thank you all. To me, this underscores 
the damage that was done by President Trump's call to Haftar. I 
have a very hard time understanding what this administration is 
doing in Libya, and I am deeply, deeply concerned that we are--
the signals that we are sending, given, as you all have said in 
your written testimoneys, the closing window of opportunity 
here for us to do something productive.
    So I am glad that we are having this hearing, and I hope 
Congress can help lead on this. And I yield back, Mr. Chairman.
    Mr. Deutch. Thank you, Mr. Allred.
    Mr. Chabot, you are recognized.
    Mr. Chabot. Thank you very much, Mr. Chairman.
    I was in Libya in August 2012 and spent the better part of 
a day and a half with our Ambassador there. And he was pretty 
upbeat about the situation and attended an Iftar dinner. And a 
lot of folks from the area attended that dinner, and there 
seemed to be a lot of camaraderie and brotherhood.
    And, of course, a month later that Ambassador was dead 
along with three other Americans. And it seems like in many 
ways it has gone downhill from there, even though there had 
been some signs of hope, but the situation is pretty chaotic, 
as all the witnesses have testified here this afternoon.
    Ms. Doherty, let me ask you this because you raised this 
particular point. That the chaos in Libya, if it is not dealt 
with, if it is not stabilized, if something positive does not 
happen, will not stay within its borders; it is going to spread 
throughout the region.
    And after she answers this question, I would be happy if 
any of the other panel members might like to, what do you see 
as the most likely spillover to other areas? And, obviously, 
number 1 is to deal with this so that does not happen. But 
where are the other spots that we should be concerned in the 
region? I will start there.
    Ms. Doherty. Thank you for your question. The most 
vulunerable spot that I perceive would be Tunisia. We have 
already seen ISIS take advantage and cross borders. There were 
attacks in Ben Gardane in 2016, for example, and so Tunisia I 
believe remains at great risk.
    Beyond that, Libya's southern borders are particularly 
porous, in some cases almost non-existent. And so there are 
threats to the Sahel that we should be looking at. And the 
south, in particular, is extremely difficult from both security 
and an economic perspective. So more attention, generally, 
needs to be paid there. But that is where we have seen, in 
fact, the most recent ISIS attacks take place.
    And then there is obviously the maritime border with Europe 
and the vulnerability that will be exposed there if we do not 
have a stable government partner that we can work with.
    Mr. Chabot. Thank you very much.
    Any of the other panel members that want to touch on it, 
you are welcome to.
    Mr. Fishman. I would just mention there are tens of 
thousands of not only African but Asian migrants stuck in 
Libya, all before this latest iteration of the civil war.
    The southern European countries, especially Italy, has been 
trying to keep them there, but long term they have got to go 
somewhere. Spain is now the most common route for migrants to 
Europe, but you are talking about tens of thousands of people 
and increasingly under duress.
    Megan alluded to it in her statement, they are so desperate 
that people are drowning by swimming across or to find rescue 
boats. That situation is going to be unbearable.
    Mr. Chabot. OK. Thank you.
    Mr. Hill. I would add that, while I agree with my colleague 
Megan about Tunisia is certainly the front line State, and you 
might consider lumping Egypt in there, but also Europe is 
paying a huge cost for the flood of migrants, both from a 
counterterrorism perspective but also a political stability 
perspective. And that cannot be underappreciated because it 
does directly impact U.S. interests. And so I would not want to 
miss that piece of it.
    Mr. Chabot. Thank you.
    Dr. Wehrey. Let me just underscore the threat to Tunisia. I 
mean, Tunisia's fragile democracy is already under strain. 
There is backsliding in terms of authoritarianism. That 
border--I have spent time on that border. I was actually there 
when the ISIS attack occurred. It is a haven for smugglers.
    As forces that were on that border are now drawn into the 
civil war, it is going to get worse. I am very worried about a 
sort of securitizing of the Tunisia problem along the border. 
The border communities that depend on trade are going to 
suffer.
    To reiterate the concern on the south, again, I was in the 
south in 2017. It is a desperate situation for these 
communities in Niger or Chad. Some of them are being drawn into 
the conflict. They are being used as mercenaries by Khalifa 
Haftar's forces, and so this is having a devastating effect on 
those southern countries.
    Mr. Chabot. OK. Thank you.
    I have probably got time for one more question. Ms. 
Doherty, I will make this one a quick one. As far as you had 
mentioned that emergency medical workers, et cetera, are under 
attack right now. Is there anything that we, our allies, that 
our friends in Libya can do to protect them more? You know, 
what should be done about that?
    Ms. Doherty. Thank you for that question. The most helpful 
thing would be a cease-fire and a return to a political 
process, and so we hope that the United States, including 
Congress, will stand up and push for that. Beyond that, 
ensuring unimpeded humanitarian access, so calling for set 
times at which there can be safe evacuations of civilians and 
the delivery of humanitarian aid, right now it is very messy.
    There are a lot of first-line responders who are 
endangering themselves and going to the front lines. And so if 
there were set times at which there would be a cessation of 
hostilities, where aid could be delivered, that would be 
useful. Beyond that, the United States could ensure appropriate 
humanitarian response. There is a Tripoli flash appeal from the 
United Nations requesting about $10 million that is only 
partially funded. But the most important thing to do is to 
stand up and end this conflict.
    Mr. Chabot. Thank you very much. My time has expired, Mr. 
Chairman.
    Mr. Deutch. Thank you, Mr. Chabot.
    Mr. Malinowski, you are recognized.
    Mr. Malinowski. Thank you, Mr. Chairman, and thanks to all 
of you for excellent testimony.
    We have a tendency to think of Libya as a hopeless case, 
and it is easy to understand why. But I think as we discuss it, 
it is important to remember that it was not always and perhaps 
does not always need to be.
    We should remember that after the revolution that toppled 
the awful Gaddafi regime, Libya had arguably one of the most 
peaceful and successful multi-party democratic elections of any 
post-conflict society in recent memory, a civilian government 
that was committed to democratic principles, to working with 
the United States and the international community to stamp out 
terrorism.
    The promise was stolen by these armed militias, aided and 
abetted often by outside powers, and not sufficiently 
discouraged by the United States, arguably over two 
administrations, not just this one.
    I had the dubious honor in 2011 of meeting Haftar in 
Benghazi. He was seen at the time when Gaddafi was still 
fighting as at least a competent commander, and so many people 
went to see him, but virtually everybody I met at the time 
already recognized him as a betting dictator or somebody who 
was in it for himself. And nothing that has happened since has 
been surprising, and you all eloquently described the 
pernicious role that he is playing today.
    So one response from this committee, a number of us today 
will be sending a letter to Attorney General Barr and FBI 
Director Wray, myself, Mr. Wilson, Ms. Wagner, Mr. Connolly, 
Mr. Allred, Mr. Trone, among others, asking the Department of 
Justice to begin an investigation of Mr. Haftar and his 
subordinates for war crimes.
    It is important to remember Mr. Haftar, in addition to all 
of the other things you mentioned, is a citizen of the United 
States and subject to our laws. And I think it is about time 
that we held him accountable under our laws for the crimes he 
is committing and the effect he is having on our interest in 
Libya.
    Let me ask a couple of questions, perhaps starting with 
you, Mr. Wehrey. Why is Russia so intent on supporting Haftar? 
How does this fit into Russia's overall strategy?
    Dr. Wehrey. I think it is a mix of opportunism, economic 
interest. I think with Haftar there are longstanding ties 
Haftar studied in the Soviet Union. Under Gaddafi, Russia had a 
number of outstanding arms contracts that they lost with the 
2011 revolution, so they have had longstanding economic designs 
on Libya.
    They want I think a friendly ally. They are not 100 percent 
wedded to Haftar in my analysis and according to the analysis 
of Russia experts. They have engaged multiple sides in this 
conflict, but they have--and I want to underscore this--their 
role has bolstered Haftar's ability to oppose the U.N. process 
crucially when they printed billions of dinars for him, or to 
fund his government in the east, and there are reports that 
they have done that since the fighting started.
    They have hosted him in very high profile, you know, 
visits. So, again, I think--he I think aligns with their 
authoritarian vision that we see Russia backing elsewhere in 
the region.
    But I am not sure, as we have noted, that he can deliver 
Libya to them, and I would be cautious about saying that Russia 
is trying to pull a Syria in Libya, because the landscape in 
Libya is completely different in terms of, what kind of army 
does Haftar really have? It is completely different than the 
Syrian army, again. And Russia's ties with Syria are much 
deeper than they are with the Libyan Officer Corps.
    So, again, it is a pernicious rule that Russia is playing, 
but I think it is ultimately an opportunistic one.
    Mr. Malinowski. Got it. And how about--and just for 
anybody, how about the UAE, and is it true, as we have seen 
reported in the press, that the UAE is supplying or paying for 
the armed drones and other weapons that Haftar is using in the 
siege of Tripoli?
    Dr. Wehrey. I could take that again. The U.N. panel of 
experts is investigating the use right now in this conflict of 
these Chinese-made drones that are known to be in the UAE 
inventory. The UAE used these in Benghazi. They have an airbase 
outside of Benghazi from which they have flown these drones, as 
well as air tractor aircraft.
    So, again, the UAE has been an important provider of close 
air support to Haftar that, again, was instrumental in Haftar's 
conquest of Benghazi. I was in Benghazi with Haftar's forces 
when they were stalemated. This was 2015. He was not able to 
move in Benghazi and conquer that city without external 
support, namely from the United Arab Emirates when they did--
they sent in armored vehicles and air strikes.
    And then also, if we are honest, the French played a role 
as well as backing them.
    Mr. Malinowski. Thank you.
    Mr. Deutch. The gentleman's time has expired.
    Mr. Vargas, you are recognized.
    Mr. Vargas. Thank you, Mr. Chairman, and thank the panel 
for being here today.
    After the murder of Ambassador Stevens back in 2012, I 
think the United States lost a lot of interest in Libya, 
frankly. I think I am--I was on the committee for 2 years, then 
I went off, and I have been on Financial Services, came back.
    But you do not hear a lot about Libya other than Benghazi, 
and more the investigations and not the people in Benghazi or 
in Tripoli. And I think that that is very unfortunate because I 
do think we are in a situation right now that it is a crisis 
and growing.
    But I was interested in talking more about the issue as it 
associates--I think people are looking at the general and 
thinking that Haftar does have the military strength, if he 
wants to, to take over the country, a lot like we maybe 
underestimated Assad.
    But, Doctor, you said that that is not the case, that it is 
more our outside friends, frankly, propping him up. Is that the 
case?
    Dr. Wehrey. It has been a huge part of his success. If we 
look at his Libyan National Army, again, it is a bit of a 
misnomer. It has got a core of regular units, but it has been 
able to collect tribal and militia units around it. Even in the 
battle of Tripoli, he does not have sufficient manpower to go 
into these urban--you know, densely urban areas.
    If you look at it from an actual force perspective, urban 
warfare, you need a lot of troops to go into urban fighting. He 
does not have that, so he is relying now on air strikes, 
precision air power, and the United Arab Emirates is reportedly 
providing that.
    So, again, I think the French, the Russians, the Emirates 
have been crucial to his military advances.
    And also, I will mention his sweep across the country with 
these military forces was often done through negotiations with 
tribes and cash. He was paying--a lot of these militias in the 
country are rent-a-militias, right? Whoever pays them the 
most----
    Mr. Vargas. Right. Well, whether he is cheating or not at 
war, I mean, it does seem like he has some momentum here, just 
to be frank. And I was trying to figure out--I think many of 
us--were the changes in opinions so quickly from the 
administration when you have the President saying one thing and 
his top diplomat saying another thing.
    I thought maybe the President just believes that this is a 
guy that is going to win, so we had better have a good 
relationship with him. Otherwise, we are going to lose him to 
Russia. I mean, it almost seems that way, but that is why I am 
curious that you do not have that view at all.
    Dr. Wehrey. I do not at all. I mean, it took him 3 years to 
win Benghazi. He stalled on the outskirts of Tripoli now. The 
reports I am getting is it is almost equally matched. I mean, 
he is not able to move in, so he is not delivering as he has 
promised.
    Mr. Vargas. Would anyone disagree with that?
    Dr. Wehrey. Let me----
    Mr. Vargas. Oh, I am sorry. I did not mean to interrupt 
you.
    Dr. Wehrey. Even in the areas of the south where he has 
conquered, the big thing earlier this year, he moved across the 
south and everyone said, ``Oh, he is securing the south, the 
oilfields.'' Those forces have left, right? The south is now 
back to the way it was before he arrived. So it is a very loose 
definition of territorial control.
    Mr. Vargas. Mr. Hill, would you agree with that?
    Mr. Hill. Entirely. From all reports, it looks like 
Haftar's forces have stretched their supply lines to the max. 
He does not have the ability to move further in, and, in fact, 
is now seeking other military routes to create new supply 
lines, so that he can change tactics because the current siege 
has not worked, or has not produced the results that were 
intended from his perspective.
    So I would agree 100 percent with Fred.
    Mr. Vargas. Ms. Doherty, how about yourself?
    Ms. Doherty. I would say that 6 weeks of fighting have 
proven that Khalifa Haftar is not able to take Tripoli quickly 
and----
    Mr. Vargas. Well, not quickly, but able to take it. Is he 
able to take it? I mean, I think the practical sense, 6 weeks 
is not--you know, it is a large city, obviously.
    Ms. Doherty. Right. Well, it did take him 3 years to take 
Benghazi. So if we are in for the long haul, we are looking at 
an extremely protracted conflict with significant 
repercussions. But I would say the reports that we are seeing 
are that the fighting is largely stalemated, and the true game-
changer would be additional foreign support to Haftar to move 
the battle.
    Mr. Vargas. Mr. Fishman.
    Mr. Fishman. I think Haftar's foreign backers were sold a 
bill of goods where when they talked to Haftar, even Mohammed 
bin Salman 10 days before Haftar's move on Tripoli, he was 
probably reassured by Haftar's presentation that all would go 
smoothly. That clearly has not been the case, and the danger is 
that the Saudis will give him money, or the UAE will give him 
more drones, and that is why U.S. effort to push back on this 
support is especially needed.
    Mr. Vargas. My time is up, but I agree with that and I hope 
we do get back to this peace process.
    Thank you, Mr. Chairman.
    Mr. Deutch. Thank you, Mr. Vargas.
    Mr. Lieu, you are recognized.
    Mr. Lieu. Thank you, Mr. Chair, and thanks for calling this 
hearing on Libya.
    Question for Mr. Fishman. Public reporting is that Haftar 
visited Saudi Arabia in the days before he launched his 
military campaign. Are the Saudis supporting Haftar?
    Mr. Fishman. I can only go by reports. I think the visit 
definitely elevated Haftar's position in the Sunni Muslim 
world, and elevated his position among his Salafi followers. 
But the extent of the support that Saudis are actually giving 
him, I cannot State definitively.
    Mr. Lieu. UAE is providing him support, correct?
    Mr. Fishman. This has been historically the case.
    Mr. Lieu. What is your sense of--and this is for the 
panel--of the support that Haftar has among the people in 
Libya?
    Mr. Hill. Well, I think it is pretty obvious, given his 
inability to take Tripoli, that he does not enjoy support 
across the country that he thought he did. It may be that he 
anticipated that the fractious nature of the militias and 
groups within Tripoli would play to his advantage, but those 
groups all coalesced in an anti-Haftar coalition. So there is a 
significant and real anti-Haftar sentiment that exists in the 
country, and I would be skeptical about his ability to unite or 
whether or not he should even be seen as a uniter. I am not 
sure that that is his objective.
    Dr. Wehrey. I will just echo that. I was in Tripoli before 
this started, and some groups in Tripoli, they were so fed up 
with the militias in Tripoli, they were ready to welcome him in 
peacefully. But then the way he has conducted this war, he has 
really turned public opinion against him. Ordinary citizens, 
militias in Tripoli that were fighting each other, are now 
unified against him.
    And I will just mention in the east, in Benghazi where he 
really rose to power, there were people that backed him out of 
desperation. Again, he promised order. You know, he promised a 
restoration of normalcy in Benghazi. He was going after 
militias.
    But then many people I talked to had a sense of buyer's 
remorse, right? Look, we supported this guy, but then in the 
areas that he has controlled, he has implemented restrictions 
on freedom of the press. He has actually allowed Islamists 
freedom in the social space. So people are saying, look, we did 
not sign up for this.
    So there is a huge amount of, I think, dismay about this 
man and his ambitions and the bargain, really, that comes with 
supporting him.
    Mr. Lieu. As was mentioned earlier, Donald Trump basically 
contradicted Secretary Pompeo a little over a week later on 
support for Haftar. Do any of you know what the current State 
Department position is on who the United States is supporting, 
if anyone, in Libya? Does anyone have any idea? OK. No one has 
any idea.
    So let me say, I oppose their intervention of Western 
powers, including the United States, to take out Gaddafi. I 
thought it was going to result in a power vacuum, and 
eventually result in a worse case than when he was in control. 
That looks like what we have now, and it has resulted in this 
massive humanitarian crisis.
    So my question now is for Ms. Doherty. The International 
Organization for Migration estimates that the current fighting 
in Libya has displaced nearly 60,000 civilians. The IOM 
considers more than 3,400 migrants detained in and near Tripoli 
to be at high risk of harm. So what are the U.N. and others 
doing to protect refugees and civilians inside Libya?
    Ms. Doherty. So the U.N. and humanitarian partners are 
responding to the best of their ability, given the current 
conflict right now. So IOM is trying to access detained 
migrants and provide services. The U.N. refugee agency has 
actually called for all detained migrants and refugees to be 
released, particularly the ones that are in conflict zones 
awaiting the front lines.
    The World Health Organization has about 12 emergency 
medical teams that they are supporting, and with additional 
backup teams that are rushing in to the front lines and trying 
to provide support. Unfortunately, they are doing so at great 
risk. I mentioned earlier they have lost 12 ambulances, and 
they have also faced loss of life and injury.
    So there is a response. It is being mounted right now by 
many actors. This is also an opportunity for the U.S. to ensure 
that the humanitarian response is funded.
    Mr. Lieu. When you say they lost 12 ambulances, are these 
because of what Haftar is doing or what the government is 
doing, or both?
    Ms. Doherty. So it is very hard to get granular details and 
attribution, but to the best of my understanding, most of the 
ambulances have been lost because of shelling and in the 
crossfire.
    There was one attack on May 8. The director of the Tripoli 
ambulance and emergency services lost his legs in a grisly 
attack, and the ambulance was taken, and that appears to be--to 
have been by LNA forces. But further investigation is required.
    Mr. Lieu. All right. Thank you. I yield back.
    Mr. Deutch. Thank you, Mr. Lieu.
    It looks like votes are about to be called, which will 
leave just enough time for Ms. Omar and me.
    Ms. Omar, you are recognized.
    Ms. Omar. Thank you, Chairman Deutch, for allowing me to 
join you in this subcommittee. I think my line of questions 
were sort of addressed a little bit by Mr. Lieu, and I just 
kind of wanted to see if we can expand on that.
    I know right now the conflicts and the new iteration of the 
civil war is putting a lot of Somali and Eritrean refugees who 
have been in prisons, who are awaiting resettlement, in danger, 
and their particular removal has not been decided on.
    And so I wanted to see if you can maybe give us further 
details to what you just stated on what their State is, and how 
the United States can assist more particularly in that area.
    Ms. Doherty. Thank you for that question. And I will note 
that even before the conflict, refugees and migrants in 
detention centers faced atrocious human rights abuses and 
inhumane conditions. Our ability to help them is even further 
limited by the fact that we are now in a full conflict. So the 
best way that we can protect these vulnerable people is to 
apply diplomatic pressure to end the conflict.
    But until we get there, we need to ensure that they are not 
in conflict zones and that they can be safely evacuated where 
their claims can be processed and they can be treated for 
injuries.
    We saw on April 23 that militias attacked the Qasr bin 
Ghashir detention facility, injuring many migrants and refugees 
who were already facing abominable conditions. So what we are 
seeing on the ground as this goes forward are more threats, 
more loss of life, to these extremely vulnerable people.
    And I will also note that are even more refugees and 
migrants who are outside of detention centers, and they do not 
have access to the same protections or services as regular 
Libyan citizens who rely on social networks and who rely on 
families to take them in.
    So if we look toward how the U.S. can help in this 
situation, obviously ending the conflict, but also helping make 
sure that people that are intercepted at sea are not returned 
to a war zone. These detention centers are running out of food, 
and they are being attacked, so it is not safe to return them.
    We should also be willing to look at levers for punishing 
those who violate international humanitarian law, and I hope 
that the U.S. Congress will look into this further.
    Ms. Omar. I appreciate that. I was on the same thought 
process of Mr. Lieu. I really oftentimes do not understand 
people who think that we are able to save more lives by asking 
for regime change or by interfering in situations that 
oftentimes will exasperate with our intervention.
    And I felt like that would be the case in Libya, and the 
Somali diaspora used to say Libya will become the next Somalia. 
And in many cases, it has had more atrocities occur than in 
Somalia. One of those is the modern day enslavement that is 
taking place in Libya, and I know that there are not a lot of 
reports that are being focused on that. You do not see that on 
the evening news.
    But since you have spent a significant amount of time in 
Libya, I wonder if you can tell us a little bit about the 
status of the trafficking and the enslavement of African 
migrants, and what the international community has been doing 
and what could be done further.
    Ms. Doherty. Thank you. So migrants are still being abused 
and also sold. Often they are sold to people who want to--if 
they have wealthy families, they will ransom them. They are 
also sold for forced labor. It is a true travesty.
    There had been efforts, both by the United States and other 
international partners, to address some of these systemic human 
rights abuses, both to improve conditions in detention centers, 
but also to address the slave auctions and the horrible things 
that we saw.
    In fact, the international community have been working with 
the GNA. They--I believe there were 200 arrest warrants issued 
in relation to an incident involving slave auctions. So there 
have been some very fragile but important steps toward 
addressing these issues.
    The problem is, now there is no way to do that in the 
middle of a conflict.
    Ms. Omar. Thank you. I think I am running out of time. Mr. 
Chairman, I hope once we sort of are past this conflict that 
you will dedicate some time on this committee in addressing 
this particular atrocity that is taking place in Libya. Humans 
cannot be sold and us not respond, so thank you.
    Mr. Deutch. Thank you for raising it, Ms. Omar. As we wrap 
up, let me just ask, there have been suggestions about the need 
to help--to ask the administration to clarify its policy. It 
has been suggested that the United States needs to lead at the 
United Nations. There has been a lot of discussion about the 
confusion surrounding the President's phone call with Haftar.
    My question, as we wrap this up is, what--be specific. Is 
there a framework at the United Nations that can work? And what 
specifically should the United States do to help lead it? 
Anyone. Dr. Wehrey?
    Dr. Wehrey. I think for all of its flaws, the U.N. roadmap 
of a national, you know, conference and an eventual push toward 
elections was the right one, although, again, we have to be 
careful about a rush to elections. I think that was one of the 
problems in 2012. We rushed to elections without having certain 
frameworks in place, security, so I think elections right now 
would be inadvisable.
    Again, I think a high-level Presidential reversal of that 
statement/clarification is absolutely needed because if 
American diplomats are still trying to adopt a more moderate, 
you know, centrist approach, you know, supporting some sort of 
cease-fire or something, it does not help that that statement 
is out there, right? And so, again, I think a very visible 
public statement is absolutely needed.
    I think one of the big problems of the U.N. process was it 
was not inclusive enough. So, again, that was one of the 
focuses--the points of this national conference was to sort of 
widen the circle to include armed groups. There was never 
really a security track, and so people like Haftar could stand 
out and later sabotage it.
    So you have got to talk to these militias. There needs to 
be a roadmap for building a new security architecture.
    And I will just close with something very important. There 
were actually talks before this war, between different armed 
factions, between different officers, about unifying the army. 
So there are these contacts ongoing, and I think the United 
States could play an important role in shepherding those talks 
and moving them forward.
    Mr. Deutch. Thank you. Ms. Doherty, I want to give you the 
last word here because we have to get to votes.
    Ms. Doherty. I appreciate that. I will just conclude, then, 
by saying that I agree with Fred's comments on inclusion and 
supporting a process that does not rush toward elite-led 
negotiations or elections, that U.S. diplomacy has played an 
important role in Libya before, and that we can continue to 
support the United Nations, specifically through a United 
Nations Security Council resolution calling for a cease-fire 
and future secondments and technical assistance.
    Thank you.
    Mr. Deutch. Great. Thank you very much.
    Thanks so much to all of the witnesses. This was an 
exceptional hearing. Thanks for your testimony.
    Members of the subcommittee, you may have some additional 
questions. We ask that they be submitted, that the witnesses 
respond to those in writing. I request that my colleagues, to 
the extent they have questions, submit them within 5 business 
days to the subcommittee clerk.
    And with that, without objection, the subcommittee is 
adjourned.
    [Whereupon, at 3:33 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                                


                                 <all>
</pre></body></html>
